IN THE SUPREME COURT OF THE UNITED STATES

AL-SAADOON, ORWA ALI, ET AL.
Petitioner
vs.

No:

20-1407

MERRICK B. GARLAND, ATTORNEY GENERAL, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
May 06, 2021
cc:
HERBERT A. IGBANUGO
IGBANUGO PARTNERS INT'L LAW
FIRM, PLLC
250 MARQUETTE AVENUE
SUITE 1075
MINNEAPOLIS, MN 55401

